       DOE/IG-0021




           Semiannual Report
           to Congress




U. S . D E PA R T M E N T O F E N E R G Y
O F F I C E O F I N S P E C TO R G E N E R A L
WA S H I N G TO N , D C 2 0 5 8 5
                                                 April 1 to September 30, 2000
The picture on the front cover is the solar system design that
won the Department of Energy’s “Sun Wall” national design
competition. The purpose of the design was to come up with a
system that is technologically advanced and aesthetically
pleasing at the same time. This solar system will be for the
30,000 square foot vertical, south-facing wall of the
Department’s Forrestal Building in Washington, D.C. The
competition challenged entrants to create a major architectural
and technology landmark in the Nation’s Capital that
demonstrates the Department’s commitment to developing
clean energy technology power in the 21st century. Sponsors
of the competition were the Department of Energy, the
American Institute of Architects, National Renewable Energy
Laboratories, and the Architectural Engineering Institute.
                             Department of Energy
                                Washington, DC 20585

                                 October 31, 2000




The Honorable Bill Richardson
Secretary
U.S. Department of Energy
Washington, DC 20585

Dear Secretary Richardson:

I am pleased to submit the Office of Inspector General's (OIG) Semiannual Report to
Congress. The report summarizes significant OIG activities and accomplishments during
the 6-month period ending September 30, 2000. The Inspector General Act, as amended,
requires you to forward the report to the appropriate congressional oversight committees
within 30 days of your receipt of this report.

Our major accomplishments during the reporting period are highlighted in the "Message
from the Inspector General" at the beginning of the Report. These accomplishments
reflect our continuing commitment to focus OIG efforts on the issues and concerns most
critical to the Congress, the Administration, and the Department. Detailed descriptions of
these and other OIG reports issued during the period, as well as other notable
accomplishments, are included in the remainder of the Report.

We appreciate the opportunity to work with you, other Department and Administration
officials, and the Congress in pursuing our mutual goals and objectives.


                                              Sincerely,



                                              Gregory H. Friedman
                                              Inspector General

Enclosure




                                      Printed with soy ink on recycled paper
                          At Your Service
Table of Contents

                    MESSAGE FROM THE
                    INSPECTOR GENERAL
                                            1




                    MAJOR REPORTING
                    AREAS                   10




                    OTHER
                    ACCOMPLISHMENTS
                                            39




                    REPORTS ISSUED
                                            42




                    STATISTICS              48




                                                 ii
                                                                                At Your Service



                                                                       T
Message From The Inspector General
                                                                             he Office of Inspector General (OIG) plays an important
                                                                       role in helping to ensure the efficiency, effectiveness, and
                                                                       integrity of all of the programs and operations of the
                                                                       Department of Energy, including those of the National
                                                                       Nuclear Security Administration (NNSA). During this
                                                                       reporting period, the OIG continued to provide special
                                                                       attention to the particular management challenges,
                                                                       vulnerabilities, and issues of concern to the NNSA. The
                                                                       challenges to the NNSA in its formative stages are many, and
                                                                       the OIG has sought to be of service to this crucial national
                                                                       security mission. Most notably, we issued a report on the
                                                                       state of the nuclear weapons infrastructure, discussed on
                                                                       pages 4 and 24 of this report. Our reviews addressed other
                                                                       important issues facing the NNSA and the Department, as
                                                                       well, including in the areas of safeguards and security,
                                                                       contract administration, and program management. The OIG
                                                                       will continue to serve as an independent voice to the
                                                                       Department, the NNSA, the Congress, and the taxpayer on
                                                                       important matters of national concern.

                                                                       During this reporting period, the OIG made recommendations
                                                                       to improve operations, facilitate positive change, and combat
                                                                       unlawful activity within the Department. Additionally, our
                                     Gregory H. Friedman               activities had a positive dollar impact. Our work during the
                                      Inspector General                period resulted in over $372.8 million in recoveries and
                                                                       potential savings. Over $2.7 million of these funds have been
                                                                       or will be returned to the Federal Government.

                                                                       Major Trends and Issues
                                                                       We assisted the Department in its efforts to improve areas of
                                                                       historical concern to Congress and the Administration, most
                                                                       notably efforts in: program management and operations;
                                                                       safeguards and security; environment, safety, and health;
                                                                       infrastructure; contract/grant administration; information
                                                                       technology management; financial management; and
                                                                       administrative safeguards. We continued to devote our
                                                                       resources to areas of critical concern to the Congress and the
                                                                       Administration. Over the last 6 months, the number of
                                                                       requests from the Secretary and the Congress to perform
                                                                       sensitive, complex tasks in short periods of time continued to


                                      Additional information on the OIG, including the full text of its public reports and Department
                                      management’s comments, can be found on the OIG website – www.ig.doe.gov
                                                                                                                                        1
                     At Your Service



              increase. In addition, our efforts to assist the Department of
              Justice (DOJ) in settling Qui Tam cases continued to
              increase. The following are highlights of these efforts.

              Program Management and Operations
              The Department continues to face challenges in meeting its
              goal of improving program management and operations. The
              OIG has issued numerous reports on long-standing problems
              in this area. For example, during the reporting period we
              conducted a review to determine whether the Department had
              taken action to expeditiously terminate the Advanced Liquid
    economy
              Metal Reactor Program and to close the Experimental
              Breeder Reactor II (EBR II). The audit concluded that the
              Department failed to take appropriate action to immediately
              close EBR II. We recommended a series of actions designed
              to ensure that ERB II would be closed “as soon as possible.”

              In addition, an OIG review determined that Rocky Flats
              Environmental Technology Site and its contractor failed to
              properly dispose of and account for weapons parts. This
              occurred because Rocky Flats failed to require its operating
              contractor to maintain an accurate inventory or to require
              screening of parts prior to disposal. We recommended that
              Rocky Flats initiate a number of actions to improve the
              control and accountability of weapons parts.

              Safeguards and Security
              Congress and the Administration continue to demand
              immediate improvement to the safeguards and security
              posture of the Department. Consequently, we continued to
              conduct significant reviews of security issues and problems
              in support of the Department’s commitment to improve
              security at its facilities. The following examples summarize
              significant OIG accomplishments in this area.

              An inspection found that the Westinghouse Savannah River
              Company (WSRC) failed to comply with Department and
              Savannah River Site requirements for disposal of surplus
              computers. Specifically, WSRC did not clear stored
              information, including sensitive unclassified information and

2
                    At Your Service



             Unclassified Controlled Nuclear Information, from all surplus
             computers. When WSRC discovered that uncleared surplus
             computer equipment had been sold, it reacquired and
             destroyed the equipment. We recommended that the
             Department review its property management systems and
             determine whether any security vulnerabilities resulted from
             the release of information.

             Another OIG review determined that management officials of
             the Albuquerque Operations Office changed annual security
             survey ratings for Los Alamos National Laboratory (LANL)
efficiency
             without documented rationale for such changes.
             Furthermore, LANL personnel believed that they had been
             pressured by LANL management to change security self-
             assessments. As a result of our review, the Department
             established a team to review whether the Department’s self-
             assessment programs have been fully implemented and
             adequately represent the actual security conditions at each
             facility.

             Environment, Safety and Health
             One of the greatest challenges the Department faces is the
             task of cleaning up contaminated sites and disposing of
             radioactive waste. The Department continues to commit
             resources to address the environmental legacy of over 50
             years of nuclear weapons production by the Department and
             its predecessors. To assist the Department with its efforts to
             optimize the use of the $6 billion it spends annually on
             environmental remediation activities, we continued to devote
             significant resources to reviews of waste disposal, and low-
             level and radioactive waste management programs.

             During this reporting period, the OIG conducted a review to
             determine whether a contractor was on track to complete the
             decontamination and decommission (D&D) of three large
             uranium enrichment buildings in the Department’s East
             Tennessee Technology Park (ETTP). The contractor was also
             required to recycle or dispose of materials located in the
             ETTP buildings and make the buildings available for
             commercial use by September 2003. The review determined



                                                                        3
                            At Your Service


                    that the contractor was not on track to complete the D&D
                    within the current contract price or on schedule. The review
                    also determined the existence of an increased risk to the
                    public of release of contaminated metals. The OIG
                    recommended a series of actions designed to improve overall
                    management of the contract.

                    Infrastructure
    effectiveness
                    Many of the Department’s weapons production facilities were
                    built during the 1940’s through the 1960’s and are in a
                    deteriorating condition. In fact, these facilities are so
                    deteriorated that the goals of the Stockpile Stewardship
                    Program are at risk. An OIG audit found that a $422 million
                    maintenance and repair backlog exists. We recommended
                    that the Administrator of the National Nuclear Security
                    Administration (NNSA) develop an overall infrastructure
                    restoration plan based on individual site plans and current and
                    planned stockpile workload requirements.

                    Contract/Grant Administration
                    We continued to focus on contract management during the
                    period. Highlights of significant accomplishments in this area
                    are summarized below:

                           Improving Contractor Performance

                    At the request of the Secretary, the OIG participated in a
                    broad, multi-program Department review of contractor
                    performance. The OIG provided recommendations for
                    improvement based on common themes identified in audit,
                    inspection, and investigative reports completed over the last
                    several years.

                    Many of the OIG's recommendations were incorporated into
                    the Secretary's May 2000 initiative to boost contractor
                    performance. Major provisions of the initiative include:
                    (1) conducting annual performance reviews; (2) paying or
                    withholding fees based on performance; (3) requiring contract
                    performance objectives to be linked to the strategic plan;
                    (4) keeping the Secretary better informed on major projects,

4
                  At Your Service



          past performance, and proposed fees; and (5) adding clauses to
          the contracts allowing the Secretary to direct a contractor to
          remove its top manager for failure to perform.

                Performance-Based Incentive Process

          An OIG audit concluded that performance-based incentives at
          the Idaho National Engineering and Environmental Laboratory
          (Idaho) were not fully successful in improving the
          performance or successfully reducing costs of its management
          and operating contractor, Lockheed Martin Idaho
economy
          Technologies Company. We recommended that the Idaho
          Operations Office: (l) improve the structure of its incentives
          and its processes for validating contractor performance; and
          (2) promptly correct deficiencies identified through validation
          efforts or independent reviews.

          Information Technology Management
          The OIG’s recently-established technology audit and
          investigative units are achieving impressive results. For
          example, during the reporting period the Technology Audit
          Group (TAG) completed two major audits, each of which had
          a significant impact. These audits addressed the Department’s
          efforts to protect its critical cyber-related infrastructures and
          problems with duplicative development of information
          systems. Management concurred with the audit findings for
          these audits and agreed to implement recommended changes
          that should improve operations of the Department.

          In addition, TAG provided technical advice and assistance to
          other OIG elements on a number of occasions during the
          reporting period. This included negotiating access to
          contractor computer systems and databases, and performing
          the actual analysis of transactional data by using computer-
          assisted audit techniques. TAG members provided assistance
          in file formatting, consultation with computer technicians, and
          in actual data extraction and analysis.

          The Technology Crimes Section (TCS) is staffed by Special
          Agents with the specialized investigative skills needed to



                                                                       5
                         At Your Service


                 address matters involving complex computer crimes committed
                 against the Department and to provide computer forensic
                 support during general fraud investigations. TCS has initiated
                 or joined several task force investigations and promoted
                 significant liaison efforts to foster cooperative relationships
                 with Department management and program officials,
                 Governmentwide organizations and other law enforcement
                 agencies.

                 Financial Management

                 We continued to conduct reviews to ensure proper
    efficiency
                 accountability over Department financial resources.
                 During this reporting period, we issued financial management
                 audit reports on Department sites and programs. The results of
                 the FY 1999 consolidated financial statement audit were
                 reported in the OIG’s April 2000 Semiannual Report. We are
                 currently working on the planning and execution of the next
                 consolidated financial statement audit which must be completed
                 by March 31, 2001.

                 Administrative Safeguards
                 Administrative operations of the Department can be particularly
                 vulnerable to waste and abuse. For example, an OIG
                 investigation, in conjunction with the U.S. Department of
                 Justice and the U.S. Attorney’s Office for the District of South
                 Carolina, culminated in a $2.5 million Civil Settlement
                 Agreement between the Government and an engineering and
                 architectural services subcontractor at the Department’s
                 Savannah River Site, in a case involving false per diem claims
                 by subcontractors.

                 Qui Tam Cases

                 Qui Tam cases allow a private citizen to file a suit in the name
                 of the U.S. Government for fraud by Government contractors
                 and other entities. The OIG is actively assisting the Department
                 of Justice in 28 Qui Tam cases involving alleged fraud against
                 the Government in the amount of $333 million.




6
                                     At Your Service



                           Other OIG Activities
                           In addition to the major reporting area accomplishments, we
                           initiated or participated in several other noteworthy activities.

                           OIG Quarterly Report

                           We published our first “Quarterly Report” to OIG customers
                           in July 2000. This report presents selected activities and
                           accomplishments of the OIG. Specifically, the report
                           summarizes significant audit, investigation, and inspection
                           activities and accomplishments during the most recent
                           quarter. We hope this document is useful and serves to
                           inform interested parties of our activities between issuances
                           of our Semiannual Reports.

                           Congressional Responses
                           We continued our strong commitment to support Congress
     Did You Know?
                           and its need for information. During the reporting period, we
                           provided information, briefings, and reports to Congress in a
   During this reporting
                           timely manner. Furthermore, the OIG conducted a number of
period, the OIG received
                           inquiries at the request of Congress. The following are
      33 requests for
                           examples of work we conducted pursuant to congressional
     information from
                           concerns:
    Congress, briefed
                                 •   Review to determine whether a Department site
  Committee staff on 10
                                     inappropriately disposed of computer hard drives
 occasions, and provided
                                     containing classified or sensitive information.
 information to Congress
      in 54 instances.
                                 •   Review to determine whether funds were
                                     inappropriately expended to implement the Kyoto
                                     Protocol.

                                 •   Review to determine whether campaigning
                                     activities by Department employees in politically
                                     sensitive positions were in accordance with
                                     applicable laws and policies and not interfering
                                     with official duties.




                                                                                          7
                             At Your Service



                         •   Review of Department controls concerning
                             management of patent and licensing activities at
                             Department-owned contractor-operated
                             laboratories.

                         •   Review of an allegation that a Headquarters laptop
                             computer containing classified information was
                             missing.
    effectiveness
                    Completing all congressional inquiries has consumed
                    considerable OIG resources.

                    Recognition of Accomplishments
                    We are extremely proud of the accomplishments and
                    dedication of our employees. A number of our employees
                    received this year’s President’s Council on Integrity and
                    Efficiency (PCIE) Award for Excellence in audit,
                    investigation and inspection work. The projects which were
                    recognized are as follows:

                    Audit—Efforts to Promote the Fair and Accurate
                          Reporting of Environmental Cleanup Costs in the
                          Federal Government

                    Inspection —Surplus Computer Equipment Management at
                           the Savannah River Site

                    Investigation —East Tennessee Environmental
                            Crimes Joint Task Force, and Clearance Status of
                            Los Alamos National Laboratory Espionage Suspect

                    The PCIE also accorded “Honorable Mention” status to the
                    following OIG efforts:

                    Audit—Critical Infrastructure Protection




8
                 At Your Service



          Inspection—Export License Process for Foreign
                 National Visits and Assignments, and Allegations
                 Relating to the Albuquerque Operations Office
                 Security Survey Process and the Security Operations
                 Self-Assessments at Los Alamos National
                 Laboratory



          The OIG will continue to support the Department in the
          accomplishment of its mission. We are, and continue to be,
          “at your service.”
economy




              Inspector General Greg Friedman and Washington, DC area
              staff, Annual Community Service Day




                                                                        9
                                                                     At Your Service
MAJOR REPORTING AREAS
                         Audit Followup Action             D     uring this reporting period, the OIG aligned its work
                                                           efforts in nine areas. A discussion of notable reviews
                        •     OIG recommended              conducted in each area follows.
                             corrective actions
                             agreed to by the
                              Department are
                              tracked by the
                             Department until
                                completed.
                                                           P ROGRAM MANAGEMENT AND
                                                           OPERATIONS
                        •      The OIG follows up
                                                           The OIG reviews the development, implementation,
                             on all Department
                                                           administration, and operation of Department programs.
                            nonconcurrences with
                                                           These efforts directly support the major Secretarial initiative
                                 OIG report
                                                           to streamline Department operations.
                              recommendations.
                                                           Project Management Baseline Weaknesses
                             • When the
                         Department and the                Baseline development is the cornerstone of sound project
                          OIG disagree, the                management. During the OIG audit of the Department’s
                           Department must                 Fiscal Year 1998 financial statements, the OIG identified
                        prepare a Management               baseline development weaknesses in the $185 billion (now
                        Decision describing its            $230 billion) liability for environmental cleanup. In 1999, the
                            position and any               Secretary directed the Office of Environmental Management
                          alternative actions.             (EM) to implement controls to correct those weaknesses and
                                                           asked the OIG to assess EM’s progress. EM and the Chief
                         • The Department’s                Financial Officer took prompt corrective action to improve
                        Chief Financial Officer            the liability estimate and EM’s baseline development
                              reviews the                  processes. New guidelines were established to strengthen
                        Management Decisions               baselines for cleanup projects, including specific controls to
                          and may convene a                ensure the baselines were supportable and updated.
                            meeting of the                 These improvements were important first steps. To ensure
                        Departmental Internal              that the Department continues to improve its project
                          Contract and Audit               baselines, the OIG recommended that the Department further
                            Review Council                 develop and implement system-wide the “best practices” that
                         (DICARC) to achieve               resolved its material weakness in environmental liability
                          mutually agreeable               reporting. The OIG also recommended, and the Department
                               resolution.                 agreed, that the best practices should be included in the
                                                           Department's Project Management Manual. (IG-0476)




                            Additional information on the OIG, including the full text of its public reports and Department
10                          management’s comments, can be found on the OIG website – www.ig.doe.gov
                    At Your Service



             The Department Continues to Pay More for
             Health Benefits
             The Department’s actions in response to a prior audit have
             significantly reduced health benefit costs, while maintaining
             competitive benefit programs for employees. Despite these
             improvements, the Department continued to pay substantially
             more than competitive market benchmarks per capita for
             employee health benefits in Calendar Year (CY) 1998. This
             occurred because the Department did not require contractors
             to bring health benefit plan costs in line with competitive
             market benchmarks and industry practices. Had the
efficiency
             Department required the contractors to do so, the Department
             could have saved $33 million in employee health benefit
             costs in CY 1998.

             The OIG recommended that the Acting Director, Office of
             Procurement and Assistance Management, amend
             Department Order 350.1 to require contracting officers to:
             (1) periodically determine the reasonableness of contractors’
             health benefit costs and overall benefit program costs using
             the Chamber of Commerce Study or other cost benchmarks
             published by national consulting firms; and (2) develop
             corrective action plans to reduce health benefit costs to within
             five percent of competitive market benchmarks.
             Management did not concur with the OIG recommendations.
             (IG-0470)

             Landlord Cost Estimates Not Validated
             Public Law 105-119 requires the Secretary of Energy to
             convey tracts of land at Los Alamos National Laboratory
             (LANL) to the County of Los Alamos and the Secretary of
             the Interior in trust for the Pueblo of San Ildefonso. Pursuant
             to the Public Law, the Department must submit a Combined
             Data Report to Congress concerning the environmental
             restoration or remediation of the subject tracts, the potential
             environmental impact associated with the tracts transfer,
             estimated costs to restore the tracts, and the estimation of
             landlord costs.




                                                                        11
                            At Your Service


                     The OIG conducted an audit to determine whether the
                     Department validated the cost estimates associated with the
                     conveyance and transfer of land at LANL. The Department
                     relied upon LANL personnel to prepare landlord estimates
                     instead of implementing a formal validation process. As a
                     result, the Department has no assurance that the estimated
                     costs for landlord activities reflect the costs to convey and
                     transfer the land at LANL. Subsequent to OIG fieldwork, the
                     Department obtained limited assurances on the estimated
     effectiveness
                     landlord costs and time for completion. Cost estimates for
                     cultural resource mitigation activities, however, were not
                     reviewed.

                     The OIG recommended that the Department: (1) continue to
                     negotiate with Los Alamos County, the Environmental
                     Protection Agency, and the State of New Mexico to minimize
                     costs associated with the conveyance and transfer of land at
                     LANL; and (2) implement a formal process to validate the
                     cost estimates associated with landlord activities for the
                     conveyance and transfer of land at Los Alamos. Department
                     management agreed with the OIG recommendations. (IG-
                     0469)

                     Campaigning Activities Review
                     The Chairman, Senate Committee on Governmental Affairs,
                     requested information concerning the political activities
                     conducted by Department employees. The Committee also
                     made similar requests to other Executive Branch Inspectors
                     General.

                     A review of 90 selected trips did not identify any instances of
                     campaigning activities by Department employees that were
                     not in accordance with applicable laws and regulations.
                     Additionally, interviews with senior Department officials
                     failed to disclose any circumstances where employee
                     campaigning activities interfered with their official duties.
                     The OIG identified an area of concern, however, regarding the
                     internal controls relating to documentation and receivables.
                     Changes in this area, if properly implemented, would further
                     enhance the Department’s processing of travel involving a
                     political component.


12
                                                     At Your Service


                                            Based on the review, the Department committed to develop
                                            and implement procedures to strengthen and improve the
                                            control structure. (IG-0473)

                                            Lack of Management Control Results in
                                            Inefficient Closure Activities at the Experimental
                                            Breeder Reactor II
                                                 In February 1994, the Department was directed to terminate
                                                 the Advanced Liquid Metal Reactor Program (Reactor
                                                 Program) and to close the Experimental Breeder Reactor II
                                                 (EBR II). The Reactor Program was a scientific effort to test
                                                 and develop advanced nuclear reactor technology using EBR
                                                 II. The office responsible for this program was the
                                                 Department’s Office of Nuclear Energy, Science and
                                                 Technology (Nuclear Energy). The EBR is located at the
                                                 Argonne National Laboratory – West (Argonne West) in
                                                 southeastern Idaho. The OIG conducted an audit to determine
                                                 whether Nuclear Energy had taken action to achieve the
                                                 expeditious closure of EBR II. The audit concluded that
                                                 Nuclear Energy failed to take appropriate action to achieve
Experimental Breeder Reactor II, Idaho Falls, ID EBR II’s closure.

                                            The OIG recommended a series of actions designed to ensure
                                            that EBR II would be closed "as soon as possible." One of the
                                            primary recommendations was that the EBR II’s termination
                                            process be managed using the Department’s formal project
                                            management principles. The Department agreed with the OIG
                                            recommendations and has initiated corrective actions to
                                            incorporate project management principles. (IG-0474)

                                            Rocky Flats and its Operating Contractor
                                            Improperly Accounted for and Disposed of Non-
                                            nuclear Weapons Parts
                                            An OIG review determined that Rocky Flats Environmental
                                            Technology Site and its contractor failed to properly dispose
                                            of and account for weapons parts. Specifically, Rocky Flats
                                            did not always identify weapons parts that it had transferred
                                            or disposed of and could not accurately account for the
                                            remaining inventory. This situation was the result of Rocky
                                            Flats’ failure to require its operating contractor to maintain an


                                                                                                         13
                                      At Your Service


                               accurate inventory or to require screening of parts prior to
                               disposal.

                               The OIG recommended that Rocky Flats: (l) identify and
                               screen weapons parts prior to disposal, forward parts in
                               demand to where they are needed, control accountable parts,
                               and document the contents of shipments offsite; and
                               (2) clearly define the requirements to identify and segregate
                               weapons parts when establishing performance measures
                               involving the disposition of weapons parts. Department
                               management concurred with the OIG recommendations.
                               (IG-0475)

                               Inspection Identifies Weaknesses in Cost
                               Recovery Activities
                               The OIG conducted an inquiry into allegations concerning
                               possible misuse of cost recovery funds at the Office of
                               Scientific and Technical Information (OSTI). Specifically, it
                               was alleged that: (1) cost recovery funds from the
                               Department’s Office of Defense Programs (DP) were
                               improperly placed in OSTI’s “general fund” and used for
                               miscellaneous expenses unrelated to the Work Authorization
                               provided by DP; (2) cost recovery funds were improperly
                               used to cover Federal employee salaries; and (3) DP funds
                               were improperly used to purchase a computer server which
OSTI Building, Oak Ridge, TN   was utilized for a non-DP project.

                               The OIG reviewed approximately $550,000 allotted for OSTI
                               by DP for FY1998. Of that amount, approximately $150,000
                               expended by OSTI could not be tracked because OSTI
                               management failed to maintain a detailed cost accounting
                               system. This failure was contrary to Department Order
                               534.1, “Accounting,” which requires the maintenance of an
                               accounting system that is in accordance with regulatory
                               requirements established by the Office of Management and
                               Budget, the General Accounting Office, and the Department
                               of the Treasury.

                               It was also determined that cost recovery funds were
                               improperly used to pay OSTI Federal salaries and that OSTI
                               purchased a computer server with DP funds for a non-DP
                               project. Subsequently, OSTI purchased a second computer

14
                  At Your Service


          server with its own funds to utilize on DP projects. Because
          the computer server had decreased in cost, OSTI reimbursed
          DP for the difference.

          The OIG recommended that Department management:
          (1) direct OSTI to ensure that its records contain sufficient
          details to account for all funds, assets, liabilities, and costs;
          and (2) take appropriate corrective action for cost recovery.
          OSTI agreed to develop a costing methodology to be
          approved by the Office of Chief Financial Officer. (IG-0477)

          Implementation of Departmentwide “Gain
economy
          Sharing” Program Would Provide Opportunity
          for Realization of Substantial Travel Savings
          In 1995, the General Services Administration issued guidance
          to the executive branch concerning a cost savings program
          entitled “GAIN SHARING.” The program allows agencies to
          give cash awards to employees who use frequent traveler
          programs or incur less than the maximum allowable lodging
          rate.

          The OIG conducted a review to determine whether the
          Department had developed initiatives to implement the
          “GAIN SHARING” program. Although four Department
          offices had implemented a form of “GAIN SHARING,”
          saving $58,000 in FY 1999, the review determined that a
          Departmentwide policy on “GAIN SHARING” has not been
          issued. If a Departmentwide policy is implemented, the
          Department has an opportunity to realize significant cost
          savings.

          The OIG recommended that the Department: (1) evaluate the
          existing “GAIN SHARING” programs within the
          Department; (2) develop and implement Departmentwide
          “GAIN SHARING” policies and procedures; and (3) evaluate
          the feasibility of including the Department’s management and
          operating contractors in the program. The Department
          concurred with the recommendations and has initiated
          corrective actions. (IG-0480)




                                                                       15
                          At Your Service


                  Clarification Necessary in Department
                  Administration of Patent and Licensing Activities
                  at Department-owned Contractor-operated
                  Laboratories
                  The OIG conducted an audit of the Department’s
                  administration of patent and licensing activities at
                  Department-owned contractor-operated laboratories. The
                  objective of this review was to determine whether Department
                  controls for patents and licensing were working and providing
                  protection of stakeholder interests as intended.
     efficiency
                  The review determined that Department controls for patent
                  and licensing activities were working as intended. Despite
                  these controls, however, there had been an increase in the
                  number of allegations and complaints against the laboratories
                  concerning patent and licensing activities.

                  To further strengthen the Department’s administration of
                  patent and licensing activities, the OIG recommended that the
                  Department’s Technology Transfer Working Group propose
                  administrative and/or legislative actions to clarify Government
                  laboratories’ role in interacting with the private sector. The
                  Chair of the Department’s Technology Transfer Working
                  Group did not agree with the OIG’s observation concerning
                  the number of complaints and asserted that compared to the
                  increasing amount of technology transfer activity, complaints
                  were “relatively rare.” The Chair also stated that the
                  Department was currently implementing corrective actions
                  that would satisfy OIG recommendations. (IG-0479)



                  S    AFEGUARDS AND SECURITY
                  Recent events have focused the attention of the Congress and
                  the Department on national security issues.




16
                                                         At Your Service


                                                 Surplus Computer Equipment Found to Contain
                                                 Unclassified Controlled Nuclear Information and
                                                 Other Sensitive Unclassified Information

                                                 The Westinghouse Savannah River Company (WSRC) failed
                                                 to comply with Department and Savannah River Site (SRS)
                                                 requirements for disposal of surplus computers. Specifically,
                                                 WSRC did not clear stored information, including sensitive
                                                 unclassified information and Unclassified Controlled Nuclear
                                                 Information, from all surplus computers. In addition, WSRC
                                                 did not certify that the computers were sanitized prior to
                                                 disposal.

                                                 When WSRC discovered that uncleared surplus computer
Computer equipment sold to a vendor and stored   equipment had been sold, it reacquired and destroyed the
at its facility                                  equipment. However, the OIG review disclosed that WSRC
                                                 could not account for 30 disk drives formerly used in the site’s
                                                 security system. The OIG review also disclosed that in the
                                                 July 1999 timeframe, other SRS computer equipment had
                                                 been shipped to the People’s Republic of China. The shipper
                                                 stated that no records were kept, but believed the shipment did
                                                 not contain hard drives. The OIG had no way to determine
                                                 the exact content of this shipment, but noted that over 16,000
                                                 computers and related items were sold publicly by the SRS
                                                 during FYs 1998 and 1999.

                                                 The OIG recommended that the Department review its
                                                 property management systems to ensure high-risk personal
                                                 property is properly processed. The OIG also recommended
                                                 that the Department determine whether any security
                                                 vulnerabilities resulted from the release of the information at
                                                 the SRS. Management concurred with the recommendations
                                                 and agreed to take corrective action. In addition, the
Indoor storage area                              contractor’s award fee for the six months ending March 31,
                                                 2000, was reduced by $1 million based on weaknesses found
                                                 in the protection of sensitive unclassified information. (IG-
                                                 0472)




                                                                                                             17
                           At Your Service


                     Inspection of Safeguards and Security Survey
                     Process and Security Operations' Self-
                     Assessments Result in Departmentwide Review

                     An OIG inspection found that management officials of the
                     Albuquerque Operations Office (Albuquerque) changed
                     annual security survey ratings for Los Alamos National
                     Laboratory (LANL) Security Operations. Ratings for the
     effectiveness
                     1998 and 1999 LANL Security Survey Reports were changed
                     without any documented rationale for such changes. In
                     addition, approximately 30 percent of the LANL Security
                     Operations Division personnel interviewed believed that they
                     had been pressured by LANL management to change or
                     “mitigate” security self-assessments. The review also
                     determined that the Los Alamos Area Office security staff
                     was not performing all of the oversight responsibilities
                     associated with the LANL Security Operations Division
                     programs.

                     The OIG recommended that: (1) supporting rationale for
                     changes to the Albuquerque Security Survey ratings be
                     included in the Survey Report; (2) survey personnel possess
                     the requisite expertise and skills necessary to perform the
                     surveys; (3) Albuquerque ensure that LANL’s self-
                     assessment program is fully implemented; and (4) the Los
                     Alamos Area Office has adequate staffing to carry out its
                     oversight responsibilities.

                     Albuquerque management agreed with the OIG
                     recommendations. As a result of OIG concerns, the Director,
                     Office of Security and Emergency Operations, agreed to
                     evaluate self-assessment programs Departmentwide to
                     determine if such programs have been fully implemented and
                     whether they adequately represent current security conditions.
                     (IG-0471)

                     Site Safeguards and Security Planning Process
                     Needs Strengthening
                     In January 2000, the OIG received an allegation concerning
                     serious improprieties in the Department’s Site Safeguards and



18
                                      At Your Service


                              Security Planning (SSSP) process. Specifically, the allegation
                              accused a number of people within the Department of “lying
                              in the reporting of the actual status of security” at the
                              Department’s most important nuclear sites, and that a
                              contractor’s findings under the SSSP Quality Assurance
                              process were either ignored or not acted upon in a timely
                              manner. In addition, it was alleged that “illegal” retaliation
                              was taken against those trying to correct the Department’s
                              security problems or assisting a special assistant to the
                              Secretary on Department security issues.

                              While the OIG inspection disclosed significant problems in
                              the SSSP process, the inspection did not substantiate the
                              allegations that Department officials: (1) lied in the reporting
                              of the actual status of security at the Department’s most
                              important nuclear sites; or (2) suffered retaliation for
                              reviewing SSSPs or for assisting a special assistant to the
                              Secretary.

                              The OIG made several recommendations for the Director,
                              Office of Security and Emergency Operations, most notably,
                              to establish a policy on what actions are required once high
                              and moderate risks are identified through the SSSP process,
                              and to ensure that a dispute resolution process resolves
                              disagreements that occur. Management generally concurred
                              with the OIG recommendations. (IG-0482)




     Did you know?
                              E  NVIRONMENT, SAFETY, AND
                              HEALTH
A major strategic goal of     During this reporting period, the OIG conducted significant
 the Department is the        reviews of environmental issues. The following are highlights
   cleanup of the 53          of those reviews.
 remaining contaminated
     sites by 2006.
                              Ineffective Contract Management Increases Cost
 Source: DOE Accountability   and Delays Site Contamination Cleanup Schedule
      Report– FY 1999

                              In August 1997, Oak Ridge Operations Office awarded a
                              $238 million fixed-price contract to British Nuclear Fuels Inc.
                              (BNFL) to decontaminate and decommission (D&D) three

                                                                                          19
                      At Your Service


               large uranium enrichment buildings in the Department’s East
               Tennessee Technology Park (ETTP). BNFL was also
               required to recycle or dispose of the materials located in
               ETTP buildings and make the buildings available for
               commercial use by September 2003. The OIG conducted an
               audit to determine whether completion of the D&D was
               proceeding within the current contract price and on schedule.

               The OIG concluded that BNFL was not on track to complete
               the D&D within the current contract price or on schedule. As
               of March 2000, BNFL had incurred 61 percent of the costs
               associated with the current value of its contract, but had
     economy
               completed only 14 percent of the project. As a result of
               ineffective management and insufficient oversight, the
               project will cost an estimated $94 million more than the
               current contract amount and will be completed at least 2 years
               behind schedule.

               The review also determined the existence of an increased risk
               to the public of release of contaminated metals. BNFL failed
               to perform accurate surveys of contaminated metals before
               release for recycling on the open market and did not
               adequately supervise employees who performed these
               surveys.

               The OIG recommended a series of actions designed to
               improve the overall management of the BNFL contract.
               Department management concurred with the OIG
               recommendations. (IG-0481)

               Inaccuracies in Waste Characterization Data

               In December 1997, the Department awarded a management
               and integration contract to Bechtel Jacobs, LLC (Bechtel) to
               manage the Department’s radioactive waste at Oak Ridge.
               An OIG audit was conducted to determine whether Bechtel
               and its predecessors accurately characterized the
               Department’s waste.

               The audit found that Bechtel and its predecessors did not
               accurately characterize low-level and low-level mixed
               radioactive waste at Oak Ridge. In some cases, the


20
                                                        At Your Service


                                                contractors overstated the weight, understated the volume, and
                                                inaccurately recorded the physical descriptions of the waste in
                                                inventory. The errors occurred because the Department and
                                                its contractors had not developed procedures for ensuring that
                                                the weights, volumes, and physical descriptions of waste were
                                                accurate. As a result, the Department did not have a reliable
                                                database to make informed decisions regarding the amount of
                                                waste to be treated or disposed. It also was determined that
                                                the Department will spend about $480,000 in FY 2000 to
                                                visually inspect 6,500 containers of waste that had been
                                                previously mischaracterized at Oak Ridge.

                                                The OIG recommended that the Manager, Oak Ridge
                                                Operations Office, direct Bechtel to develop procedures for
                                                determining accurate weights, volumes, and physical
                                                descriptions of mixed and low-level waste. Department
                                                management agreed with the OIG recommendations and
                                                initiated corrective actions. (ER-B-00-03)
Oak Ridge—Outside drums used to store
sludge containing both hazardous and            Subcontractor Illegally Disposes of Hazardous
radioactive waste. Over a period of time the    Waste
drums rusted and have since been packed in
special plastic containers and stored indoors
(see picture below).                            The OIG issued an Administrative Report to Management
                                                advising that an investigation substantiated allegations that a
                                                Department subcontractor illegally transported and disposed
                                                of hazardous waste from the Department's Superconducting
                                                Super Collider (SSC) site. The activities occurred in 1993
                                                and 1994 during the shutdown process at SSC. In response to
                                                the report, the subcontractor, its President, and Vice-President
                                                were debarred from doing business with the Government for 3
                                                years.

                                                As previously reported, the OIG investigation determined that
                                                the subcontractor illegally transported 18 drums containing
                                                hazardous waste generated at the SSC. The drums were not
                                                properly labeled because they did not identify the contents as
                                                hazardous and they were not accompanied by an accurate
                                                hazardous waste manifest as required by Federal law.
                                                Subsequently, the drums were illegally buried at a waste
                                                facility in southern Texas. The waste facility did not have the
                                                required permits to store such hazardous waste.



                                                                                                            21
                         At Your Service



                  The subcontractor previously pled guilty to a felony violation
                  of the Resource Conservation and Recovery Act. The
                  subcontractor was required to pay a fine of $8,000 and a
                  special assessment fee of $200. (I94AL011)

                  Subcontractor Sentenced for Resource
                  Conservation and Recovery Act Violations
                  An investigation by the East Tennessee Environmental
                  Crimes Task Force, of which the OIG is a member,
                  determined that a Department subcontractor violated the
     efficiency
                  Resource Conservation and Recovery Act (RCRA). The task
                  force investigated allegations that a subcontractor was mixing
                  hazardous waste from the Department's Vehicle Maintenance
                  Facility, Oak Ridge, Tennessee, with non-hazardous waste
                  and transporting the waste without the proper hazardous
                  waste manifest.

                  The U.S. Attorney's Office for the Eastern District of
                  Tennessee accepted the case for criminal prosecution. The
                  subcontractor-corporation and its president each pleaded
                  guilty to violations of Title 42, U.S.C., Sections 6928(d)(2)
                  (A) and 6928(d)(5) (RCRA), and Title 18, U.S.C., Section 3
                  (Accessory after the Fact), respectively.

                  The subcontractor-corporation was sentenced to 3 years
                  probation, a $3,600 fine and a $400 special assessment fee.
                  The president was sentenced to 1-year probation, a $2,400
                  fine, 150 hours of community service in the environmental
                  field, and a $25 special assessment fee. Additionally, the
                  Department debarred the president and the corporation from
                  doing business with the Government for 3 years. (I97OR007)

                  Guidance Needed for Global Climate Change
                  Activities

                  The United Nations Framework Convention on Climate
                  Change (FCCC), a plan intended to identify methods of
                  reducing greenhouse gas emissions, was ratified by the
                  Senate in 1992 and became effective in July 1994. The Kyoto
                  Protocol, a proposed amendment to the FCCC, is an initiative


22
                        At Your Service


                to reduce net emissions of certain gases by setting limitations
                on emissions of developed countries throughout the world.
                The Kyoto Protocol has not been forwarded to the Senate for
                ratification. Fiscal Year 2000 Appropriation Act language
                prohibited the expenditure of funds "to propose or issue rules,
                regulations, decrees, or orders for the purpose of
                implementation, or in preparation for implementation, of the
                Kyoto Protocol." At the request of Congress, the OIG
effectiveness
                conducted an audit to determine whether Department funds
                were expended to implement or prepare for implementation
                of the Kyoto Protocol. The audit revealed no evidence
                indicating that funds were expended to issue policies to
                implement the Kyoto Protocol.

                The OIG recommended, however, that the Department
                provide to its employees a formal interpretation on the
                appropriateness of activities in relation to the statutory
                restriction. The Director, Office of Policy, agreed to develop
                appropriate guidance. (IG-0467)




                I  NFRASTRUCTURE
                Modernization of the Department’s aging infrastructure is a
                major challenge facing the Department. The Department has
                embarked on a long-range program to consolidate and build a
                smaller, modern and more efficient weapons production
                complex. The following are highlights from several reviews
                the OIG conducted in this area.


                Critical Infrastructure Protection Efforts Not
                Complete
                In 1997, a Presidential Commission on Critical Infrastructure
                Protection concluded that the national critical infrastructures
                were vulnerable to attack through the malicious use of
                commonly available tools. As a result, the President issued
                Presidential Decision Directive 63 (PDD 63) that required
                Federal agencies to develop and implement protective
                measures to eliminate significant vulnerabilities and assure


                                                                            23
                                          At Your Service


                                  the continuity and viability of the nation’s critical
                                  infrastructure.

                                  The OIG conducted a review to determine whether the
                                  Department’s implementation of PDD 63 was achieving its
                                  intended purpose. The review determined that the
                                  Department did not implement its critical infrastructure
                                  protection plan. Specifically, the Department’s plan had not
                                  been amended to correct deficiencies in threat analysis and
                                  emergency planning. Also, the Department had not
                                  completed internal infrastructure planning and assessment
                                  activities. The Department’s lack of progress in fully
                                  implementing and executing PDD 63 increases the risk of
                                  malicious damage to its cyber-related critical infrastructure
                                  that could adversely impact the Department’s ability to
                                  protect assets and deliver essential services. National goals
                                  for achieving an initial protection capability by the end of
                                  CY 2000 and a fully functional infrastructure protection by
                                  CY 2003 may also be adversely impacted.

                                  The OIG recommended a series of actions designed to help
                                  ensure that future efforts to protect the Department’s critical
                                  infrastructures are successful. Management concurred with
                                  the OIG recommendations. (IG-0483)

                                  The Department Needs to Develop an Overall
                                  Infrastructure Restoration Plan
          Did you know?
                                  The Department, through its Stockpile Stewardship Program,
       It has been almost 8       is responsible for ensuring the safety, security, and reliability
        years since the last      of the nuclear weapons stockpile. In 1998, the Department
     U.S. underground nuclear     concluded that aging and deteriorating weapons production
       test. The Stockpile        facilities had created a $422 million maintenance and repair
     Stewardship Program has      backlog. Although the data suggests that current military
      moved the nation from       requirements were being met, the deterioration of the
      test-based to science-      infrastructure resulted in delays in weapons modification,
         based methods of         remanufacture, and dismantlement and in surveillance testing
      stockpile certification.    of nuclear weapons components. Current and future goals of
                                  the Stockpile Stewardship Program are at risk. Department
     Source: DOE April 14, 2000   officials within the National Nuclear Security Administration
            News Release          (NNSA) estimated that the Department must invest $5 billion
                                  to $8 billion more than current budgeted amounts over the


24
                                       At Your Service


                               next 10 years to offset the effects of delayed or neglected
                               infrastructure.

                               The OIG recommended that the Administrator of NNSA
                               develop an overall infrastructure restoration plan based on
                               individual site plans and current and planned stockpile
                               workload requirements. The Administrator, NNSA,
                               concurred with the OIG recommendations and advised that
                               Phase II of the Facilities and Infrastructure Initiative study,
                               now underway, would address each of the OIG’s
                               recommendations. (IG-0484)



                               C  ONTRACT/GRANT
                               ADMINISTRATION
                               The OIG continued to dedicate its efforts to management
      Did you know?            reviews geared towards assisting the Department in
                               improving its management of contracts and grants. This is a
The Department contracts       major Department initiative.
92 percent of its budget.
 In FY 2000, Department
 contracting totaled over
                               New Security Contract Does Not Provide
       $17 billion.            Incentives to Reduce Overtime or Minimize
                               Security Costs
Source: Department of Energy
 Procurement and Assistance
  Data System (PADS) as of
                               Until recently, Lockheed Martin Energy Systems, Inc.
      October 23, 2000         (LMES) operated and provided security services at the
                               Department’s major sites in Oak Ridge, Tennessee. In 1999,
                               the Department awarded Wackenhut Services, Inc.
                               (Wackenhut) a new contract to provide security services for
                               these locations. An OIG audit of the new contract determined
                               that the contract was not structured to include incentives to
                               reduce overtime or minimize costs. In negotiating the terms
                               of its contract with Wackenhut, the Department failed to do a
                               comprehensive analysis to evaluate staffing and overtime
                               requirements. In fact, the contract permits Wackenhut to
                               utilize up to 26 percent more overtime than LMES, and hire
                               an additional 100 guards despite comparable levels of effort.




                                                                                             25
                                         At Your Service


                                  Using the CY 1999 LMES actual security overtime as a
                                  baseline, the Department will incur additional overtime costs
                                  of at least $8.1 million during the 3-year base term of the
                                  contract. Because the security contract calculates available
                                  award fee as a percentage of proposed labor costs, the
                                  Department could incur an additional $3.2 million in award
                                  fees if Wackenhut works the maximum amount of overtime
                                  allowed by the contract and fully staffs its security force.

                                  The OIG recommended that the Manager, Oak Ridge
                                  Operations Office: (1) perform a comprehensive cost
                                  analysis to determine the appropriate trade-off between
                                  increased staffing levels and the use of overtime for
                                  Wackenhut’s contract; (2) use the cost analysis as a basis to
                                  establish measurable performance objectives with incentives
                                  for Wackenhut in the Annual Performance Evaluation Plan;
                                  and (3) ensure that future security services contracts include
                                  performance incentives to keep overtime at a minimum.
                                  Department management agreed with the OIG
                                  recommendations and agreed to initiate corrective actions.
                                  (ER-B-00-02)

                                  Improvements Needed in Performance-based
                                  Incentives Process
                                  In 1994, the Department replaced its standard management
                                  and operating contract with a new performance-based
                                  contract. The new contract included incentives to improve
                                  performance and/or reduce costs. An OIG audit concluded
                                  that performance-based incentives at the Idaho National
                                  Engineering and Environmental Laboratory (Idaho) were not
                                  fully successful in improving the performance or in
                                  successfully reducing costs of its management and operating
                                  contractor, Lockheed Martin Idaho Technologies Company
                                  (Lockheed).

                                  Out of 13 programs reviewed, the OIG questioned 8 of the
 Idaho National Engineering and
 Environmental Laboratory         incentives awarded, some for more than one reason. For
                                  some incentives, performance declined or was unchanged.
                                  For others, performance improved but the improvement was
                                  overstated, was compensated twice, could not be directly
                                  linked to actions taken by Lockheed during the incentive


26
                  At Your Service


          period, or carried a disproportionately high fee. For still
          others, Lockheed could not demonstrate any reduction in
          costs.

          The OIG recommended that Idaho: (1) improve the structure
          of its incentives and its processes for validating contractor
          performance; and (2) promptly correct deficiencies identified
          through validation efforts or independent reviews.
          Department management concurred with the finding and
          recommendations and agreed to improve its performance
          incentives program. (WR-B-00-05)

          Nonperformance of Make-or-Buy Analysis
economy

          Results in Missed Opportunities to Reduce Costs
          In 1994, the Department implemented a requirement that its
          management and operating contractors (M&O) evaluate
          whether their services could be obtained at a lower cost by
          outsourcing to commercial entities. The OIG conducted an
          audit to determine whether Brookhaven National Laboratory
          (Brookhaven), operated by an M&O contractor, prepared a
          make-or-buy analysis for its Central Shop operations. The
          OIG review established that Brookhaven did not conduct a
          make-or-buy analysis for its Central Shops despite the fact
          that this was one of its largest service functions. It was
          revealed that Brookhaven failed to make the performance of a
          make-or-buy analysis a high priority due to outsourcing
          restrictions in its collective bargaining agreement and
          limitations in its financial system. Thus, the audit concluded
          that Brookhaven and the Department may have missed
          opportunities to reduce fabrication costs.

          The OIG recommended that the Chicago Operations Office
          Manager direct Brookhaven, before negotiation of its next
          collective bargaining agreement, to: (1) review its
          methodology for measuring and charging the costs of Central
          Shops services and make appropriate changes; and
          (2) perform a make-or-buy analysis for Central Shops that
          evaluates opportunities to reduce costs such as outsourcing
          and privatization. Department management agreed with the
          OIG recommendations. (ER-B-00-01)



                                                                    27
                         At Your Service


                  False Claims by a Department Subcontractor
                  Result in a Civil Settlement of Over $1.2 Million
                  As previously reported, the OIG initiated an investigation
                  upon receipt of an internal audit report from the Department's
                  facility management contractor at the Pantex Facility
                  (Pantex) in Amarillo, Texas. The audit found that a waste
                  disposal services subcontractor had conspired to defraud the
                  Government through fraudulent billings. The audit disclosed
                  potential billing irregularities that resulted in the suspension
                  of payment by the contractor to the subcontractor.
     efficiency
                  The OIG investigation revealed that the subcontractor
                  overcharged for services and equipment, double billed, and in
                  some instances, billed the Department’s contractor for
                  services it never performed. Under the terms of the Civil
                  Settlement Agreement, the subcontractor was ordered to pay
                  the Government over $1.2 million, which included double
                  damages and penalties.

                  During this reporting period, the OIG issued an
                  Administrative Report to Management concerning the above-
                  mentioned false claims. In response to the report, the
                  Department: (1) admonished the subcontractor; (2) required
                  the subcontractor to instruct its employees in business ethics
                  and standards of conduct; and (3) required the subcontractor
                  to provide assurances that it had taken initiatives to prevent
                  reoccurrence of this and other conduct that might call into
                  question the subcontractor’s responsibility as a Government
                  contractor. (I94AL006)

                  Contractor Improperly Withholds Travel Rebates
                  An OIG investigation determined that a Department travel
                  service contractor was paying travel rebates that were
                  considerably less than what the Department received from a
                  previous contractor. Under a General Service Administration
                  (GSA) award, the subject contractor provided travel services
                  to a Department National Laboratory and to several other
                  agencies. The contract required the contractor to pay travel
                  rebates to all participating Government client agencies based
                  on a formula specifically identified in the contract. The OIG


28
                           At Your Service


                investigation revealed that the contractor failed to calculate the
                rebates using the proper formula. Based on the investigative
                findings, GSA initiated administrative action against the
                contractor and recovered $53,590 in back rebates on behalf of
                the Department and other Federal agencies. (I00HQ005)

                Audit Questions Using Contract Funds for Polling
effectiveness
                A limited OIG review questioned the University of California’s
                (UC) expending $24,000 in contract funds to retain a contractor
                to poll 600 people in five cities in the Bay Area. The poll
                apparently sought to gauge public awareness and impressions of
                Lawrence Livermore National Laboratory with respect to certain
                issues, including: (1) cost overruns associated with the National
                Ignition Facility; (2) allegations of discrimination against Asian
                Americans; and (3) security and espionage concerns. The OIG
                questioned the utility and appropriateness of the use of taxpayer
                dollars for this kind of exercise. The OIG also took issue with
                the manner in which the poll was used by UC to downplay the
                concerns expressed by the Secretary and the Congress about
                these issues.

                The OIG recommended that the Department and the National
                Nuclear Security Administration should: (1) determine if the
                costs involved are, in fact, allowable; (2) review all facilities
                management contracts to identify the extent to which this type of
                activity is being repeated elsewhere; and (3) evaluate whether
                this kind of expenditure is in the best interest of the Government.
                (HQ-L-00-02)




                                                                                29
                                              At Your Service




            Did You Know?
                                        INFORMATION TECHNOLOGY
                                        MANAGEMENT
        The Department had
      4,621 computer security
                                        Accomplishments in the Information Technology
       “incidents,” during the
                                        Management area include the following.
     third quarter of FY 2000
      compared to 3,080 in all          The OIG’s Technology Crimes Section (TCS) is staffed by
         of FY 1999. These              Special Agents with specialized investigative skills. These
       included 87 successful           skills are necessary to review computer systems and respond
          computer network              to the complex computer crimes committed against the
     intrusions, 146 attempted          Department and to provide computer forensic support to the
           intrusions and 7             OIG investigative staff.
        successful denial-of-
           service attacks.             An example of one of TCS’s most recent successes involves a
                                        joint investigation between the TCS and the Federal Bureau
         Source: DOE Computer           of Investigation, High Technology Crimes Squad. This effort
     Incident Advisory Capability, FY   culminated in the arrest of an individual who hacked into the
       2000 third quarter report,       Department's Lawrence Livermore National Laboratory.
       Office of Chief Information
                 Officer
                                        This was in violation of Title 18, U.S.C., Section 1030 (a)(5)
                                        (B) (Unauthorized Access of a Protected Computer
                                        Recklessly Causing Damage).

                                        Facilities Information Management System Did
            Did you know?               Not Contain Accurate and Complete Data
        In 1999, 54% of all             In July 1995, the Department implemented a $2 million
        reported Department             Facilities Information Management System (FIMS) as its
     computer network scans, a          corporate real property database. With a multi-billion dollar
     technique used by hackers          inventory of real property throughout the nation, maintaining
        to look for computer            complete and accurate information on these holdings is
       network vulnerabilities,         critical.
         came from domestic
              sources.                  An OIG review of the system revealed that the FIMS did not
                                        contain accurate and complete information. Real property
     Source: DOE Computer Incident      existed at some sites that had not been entered in FIMS, while
      Advisory Capability, FY 2000      in other instances recorded property could not be located. In
           third quarter report
                                        addition, some supplemental data necessary for managing and




30
                 At Your Service


          reporting on Department real property had not been entered in
          the system. Many field sites maintained their own site-
          specific real property systems and did not use FIMS to
          manage property. Further, the Office of Field Integration,
          responsible for oversight of FIMS, did not have the authority
          to require field sites to maintain and use the database. As a
          result, the Department’s ability to rely on FIMS for decisions
          concerning real property was questionable.

          The OIG recommended that the Field Management Council
          take a series of actions to strengthen the collection and
          management of real property information. Management
economy
          agreed with the audit conclusion and recommendations.
          (IG-0468)

          Development of Information Technology
          Investment Strategy Necessary to Reduce or
          Eliminate Duplicative Computer Systems
          The Department spends about $1.6 billion annually for the
          acquisition and maintenance of information technology (IT)
          related resources. Over $500 million, or 32 percent, of the
          Department’s IT-related budget was for development,
          modernization, and enhancement of systems at the
          Department and its on-site contractors. In recent years, the
          Department has attempted to leverage its IT resources by:
          (1) implementing cross-cutting, corporate level information
          systems; (2) establishing an aggressive strategic plan; and
          (3) setting performance goals. The OIG conducted an audit to
          determine whether the Department’s corporate information
          management systems were being duplicated by site specific
          stand-alone systems.

          The review determined that despite the Department’s
          initiatives, it had spent at least $38 million developing
          duplicative systems. Furthermore, the Department had not
          fully developed and implemented an application software
          investment strategy designed to reduce or eliminate
          duplicative systems.




                                                                    31
                         At Your Service


                  The OIG recommended a series of actions designed to reduce
                  expenditures and to prevent or reduce duplicative system
                  development. Management generally agreed and proposed a
                  number of corrective actions. (IG-0485)

                  Benefits Not Derived From Investments in Two
                  Integrated Business Information Systems
                  A number of the Department’s facility management
                  contractors are developing and implementing integrated
                  business information systems. The objective of this effort is
     efficiency
                  to increase the efficiency of Department operations. The OIG
                  conducted an audit of eight of the Department’s largest
                  contractors to evaluate the contractors’ progress in this effort.
                  The review determined that six of the eight contractors had
                  already implemented such systems. Two contractors,
                  Westinghouse Savannah River Company (WSRC) at the
                  Savannah River Site and the University of California (UC) at
                  the Los Alamos National Laboratory, have not implemented
                  the systems. WSRC terminated its project to implement an
                  integrated information system after investing 9 months and
                  $11.5 million, and UC terminated its project after spending
                  over 2 years in development and $3.6 million in related costs.

                  Furthermore, WSRC and UC did not follow Federal or
                  Department guidelines for software projects. As a result, the
                  Department received no appreciable benefit from the $15.l
                  million invested in the new systems at these sites. At the
                  Savannah River Site, the Department estimated it could have
                  saved $86 million over a 4-year period if the integrated
                  business information system had been successfully
                  implemented.

                  The OIG recommended a series of actions to ensure that
                  future efforts to develop integrated business information
                  systems are successful. The Savannah River and
                  Albuquerque Operations Offices concurred with the finding
                  and recommendations. (IG-0466)




32
                         At Your Service




                F     INANCIAL MANAGEMENT
                The OIG reviews the management controls, accounting
                systems, and other processes that ensure that the Department
                and its contractors exercise proper accountability over
                Government financial resources. The major review
effectiveness
                performed by the OIG is the annual audit of the Department’s
                consolidated financial statements as required by the
                Government Management Reform Act of 1994. The results
                of the FY 1999 consolidated financial statement audit were
                reported in the OIG’s April 2000 Semiannual Report. The
                OIG is currently reviewing the Department’s FY 2000
                financial statements and will report the results in its April
                2001 Semiannual Report. During this reporting period,
                substantial effort went into the planning and execution of this
                audit, which must be completed by March 31, 2001. As each
                yearly audit is completed, a new cycle begins again.



                A  DMINISTRATIVE
                SAFEGUARDS
                Administrative operations are particularly vulnerable to waste
                and abuse. During the reporting period, OIG work resulted in
                the following results.

                False Per Diem Claims by Subcontractors Result
                in a $2.5 Million Civil Settlement
                An OIG investigation, in conjunction with the U.S.
                Department of Justice (DOJ) and the U.S. Attorney's Office
                (USAO) for the District of South Carolina, culminated in a
                $2.5 million Civil Settlement Agreement between the
                Government and an engineering and architectural services
                subcontractor at the Department's Savannah River Site (SRS),
                Aiken, South Carolina. The Department directly received
                $1.24 million of the $2.5 million stipulated in the agreement.



                                                                            33
                      At Your Service


               The investigation involved allegations that from November
               1993 through July 1995, while performing a subcontract at
               the SRS, subcontractor employees improperly received
               hundreds of thousands of dollars in Long-Term Temporary
               Assignment per diem payments. Per diem is money paid by
               the Government to reimburse employees for travel and
               temporary living expenses. The investigation revealed that in
               order to receive per diem payments the initial and successor
               subcontractors' employees falsely certified that the residences
               of family members, friends and rental/vacation properties
               were their permanent residences. (I96SR028)
     economy
               Subcontractors Pled Guilty to Criminal False
               Statements for Supplying the Government
               Substandard Coal
               As members of a multiagency task force, the OIG conducted
               an investigation into the alleged shipment of substandard coal
               and falsification of coal testing results. The substandard coal
               was provided to the Department’s Savannah River Site, the
               Fernald Environmental Management Project, and numerous
               Department of Defense facilities.

               The task force investigation revealed that: (1) a coal-testing
               laboratory subcontractor falsified quality assurance test
               reports on substandard coal; and (2) a coal supplier
               subcontractor falsified certifications to the Government
               concerning the source and seams from which coal was mined,
               as well as the quality of the coal produced. The U.S.
               Attorney's Office for the Southern District of Kentucky
               accepted the case for criminal prosecution. A Federal Grand
               Jury returned a 43-count indictment for false statements, false
               claims, conspiracy, and major fraud against the Government.
               Following the indictment, both subcontractors and their
               owners were suspended from Government contracting.

               Under the terms of a Plea Agreement, the owners separately
               pled guilty to violations of Title 18, U.S.C., Section 1001
               (False Statements), and were each sentenced to 2 years
               probation. (I94SR018)




34
                   At Your Service



             Contractor Employee Sentenced for Theft of
             Computers
             In a previous Semiannual Report, the OIG reported that a
             contractor employee had stolen approximately $3,600 in
             computer equipment from the Idaho National Engineering
             and Environmental Laboratory. After an Assistant U. S.
             Attorney for the District of Idaho accepted this case for
             criminal prosecution, the employee pled guilty to one
             count of Title 18, U.S.C., Section 641 (Theft of
             Government Property).
efficiency

             During this reporting period, the contractor employee was
             sentenced to 1-year probation, a $1,000 fine and a $25
             special assessment fee. (I98IF005)

             Subcontractor Employees Convicted of Theft
             An OIG investigation determined that two former
             Department subcontractor employees stole over 36,000
             pounds of salvageable metal from the Oak Ridge Y-12
             facility. The U.S. Attorney's Office for the Eastern
             District of Tennessee accepted the case for criminal
             prosecution. Both employees pled guilty to one count of
             Title 18, U.S.C. Section 641 (Theft of Government
             Property) and had their site access withdrawn. One
             employee was sentenced to 2 years supervised probation
             and was ordered to pay $704 in restitution. The other
             employee was sentenced to 12 months incarceration to be
             followed by 3 years of supervised release and was also
             ordered to pay $22,540 in restitution — $17,887 to the
             Department and $4,653 to the scrap metal dealer.

             During the investigation the OIG recovered 7,726 pounds
             of the salvageable metal from a local scrap metal dealer
             where one of the employees sold the metal for $22,540.
             (I98OR005)




                                                                     35
                                                 At Your Service


                                          Subcontractors Pled Guilty to Bid Rigging
                                          The OIG received information that a Department
                                          subcontractor and a co-conspirator unlawfully colluded in the
                                          submission of bids to the Bonneville Power Administration
                                          (BPA) for brush clearing services along transmission line
                                          right-of-ways. The subcontractor and co-conspirator devised
                                          a scheme to deceive BPA into believing that the
                                          subcontractor and co-conspirator company were independent
                                          of one another. During the period under investigation, it was
                                          found that the subcontractor and co-conspirator companies
                                          were, in fact, affiliated and were allocating and submitting
                                          non-competitive bids to the Government.

                                          Based on the investigative findings, the U.S. Attorney for the
                                          District of Oregon and the Department of Justice Antitrust
                                          Division filed an Information charging the subcontractor with
                                          violation of Title 18, U.S.C., Section 371 (Conspiracy to
                                          Defraud). The president of the subcontractor company, and
                                          his son, the co-conspirator, entered a Plea Agreement
                                          ordering them to pay a total of $100,000 in fines and
                                          $200,000 in restitution to BPA. (I99RL002)

                                          Policy Needed for Addressing Incidents of
                                          Scientific Misconduct
                                          At the request of the Secretary of Energy, the OIG initiated
                                          an inspection into issues relating to allegations that a research
                                          scientist at the Lawrence Berkeley National Laboratory
                                          (Berkeley) engaged in scientific misconduct. The OIG
                                          review determined that Berkeley conducted an internal
                                          investigation concluding that the scientist had intentionally
                                          falsified and misrepresented research data. The scientist had
                                          received about $5.9 million from the Department, other
                                          Government agencies, and private institutions for research
                                          projects. A Berkeley official said that about $499,000 of the
                                          Department funds were most likely used by the scientist to
                                          develop the research data that was falsely reported. The OIG
Aerial view, Lawrence Berkeley National
Laboratory                                review found that the Department did not have a policy
                                          addressing allegations of scientific misconduct. Department
                                          officials who became aware of Berkeley’s investigation of the
                                          research scientist for possible misconduct determined that no


36
                        At Your Service



                actions were necessary. As such, senior Department officials
                were not made aware of this issue, and the Department did
                not consider whether: (1) the research scientist’s current
                work should continue to be funded; (2) the Department
                should initiate efforts to recover funds used in the alleged
                falsified scientific papers; or (3) the Department should not
                provide future funding for the scientist’s work.
effectiveness
                Largely because it had no policy regarding scientific
                misconduct, responsible Department personnel apparently
                believed that they had no obligation to take corrective action
                in response to Berkeley’s findings. More troubling, as a
                result of this management failure, the research scientist
                subsequently received over $900,000 in additional
                Department funds for research unrelated to the study
                investigated by Berkeley.

                The OIG recommended that the Deputy Secretary select an
                office that will be responsible for developing and
                implementing the Department’s policies and procedures on
                scientific misconduct, and ensure that the policy is consistent
                with the new Governmentwide policies. The OIG also
                recommended that the Department modify its current
                management and operating contracts to incorporate
                provisions that address alleged scientific misconduct, and
                require the Department to recover funds used to support
                misconduct occurred. The Department concurred with the
                OIG’s recommendations and designated the Office of Science
                as the lead office. (IG-0478)

                Department Program Manager Misused
                Government Sponsored Credit Card
                An OIG investigation substantiated an allegation that a
                Department Program Manager repeatedly misused a
                Government-sponsored credit card. The investigation
                disclosed that the credit card was used to: (1) obtain cash
                advances not associated with Government travel; (2) charge
                personal travel; and (3) purchase personal items. The value
                of the credit card expenditures was approximately $7,500.
                Additionally, the Program Manager utilized his son’s name



                                                                            37
                      At Your Service


               and social security number to obtain another Government-
               sponsored credit card after his card had been revoked for
               nonpayment.

               This matter was referred to and declined by the U. S.
               Attorney's Office for the District of Colorado in favor of
               administrative action. An Administrative Report to
               Management was submitted to Department management
               recommending that appropriate administrative action be taken
               against the Program Manager. In response to the OIG
               recommendations, the Program Manager was suspended for 2
               days, counseled by his supervisor, and referred to the
     economy
               Employee Assistance Program. (I99DN009)




38
                                                                    At Your Service


                                                           Qui Tams
Other Accomplishments
                               Did you know?               The False Claims Act (Act) prohibits any person from
                                                           “knowingly” presenting “a false or fraudulent claim for
                            The OIG is currently           payment or approval” to the Federal Government. The Act
                                assisting the              authorizes individual citizens to bring private suits, referred to
                          Department of Justice            as Qui Tam actions, to enforce the Act on behalf of the
                          in 28 Qui Tam lawsuits           Government. Since 1996, the OIG has been instrumental in
                           involving alleged fraud         assisting the Department of Justice in Qui Tam cases in which
                                 against the               it is alleged that a Department of Energy contractor has
                             Government in the             submitted false claims.
                              amount of $333
                                    million.
                                                           Management Referral System
                           Source: Energy Inspector
                           General Project Tracking        The OIG operates an extensive Management Referral System.
                                    System                 Under this system, selected matters received through the OIG
                                                           Hotline or other sources are referred to the appropriate
                                                           Department manager or other Government agency for review
                                                           and appropriate action. Complaints referred may include
                                                           such matters as time and attendance abuse, misuse of
                                                           Government vehicles and equipment, violations of established
                                                           policy, and standards of conduct violations.

                                                           The OIG referred 157 complaints to Department management
                                                           and other Government agencies during the reporting period.
                                                           The OIG asked Department management to respond
                                                           concerning the actions taken on 90 of these complaints.

                                                                      Management Referral System
                                                                  (complaints referred by major issue area)

                                                                                                           Administrative
                                                                                                           Safeguards
                                                                                 15         22             Contract/Grant
                                                                                                           Administration
                                                                                                           Environment, Safety,
                                                                                                           and Health
                                                                                                           Financial
                                                                      40                                   Management
                                                                                                           Information
                                                                                                           Technology Mgt.
                                                                                                           Intelligence/
                                                                                                      57   Counterintelligence
                                                                         1
                                                                                                           Program
                                                                           3                     57        Management
                                                                                 18                        Safeguards and
                                                                             1                             Security



                        Additional information on the OIG, including the full text of its public reports and Department
                        Management’s comments, can be found on the OIG website – www.ig.doe.gov                                   39
                        At Your Service



                  Intelligence Activities
                  The OIG issued two quarterly intelligence reports pursuant to
                  Executive Order 12863, “President’s Foreign Intelligence
                  Advisory Board.” The Order requires the Inspectors General
                  of the Intelligence Community to report to the Intelligence
                  Oversight Board concerning intelligence activities that the
                  Inspectors General have reason to believe may be unlawful or
                  contrary to Executive Order or Presidential Directive.

                  Legislative and Regulatory Review
     efficiency

                  The OIG coordinated and reviewed 22 legislative and
                  regulatory items, as required by the Inspector General Act of
                  1978. The Act requires the OIG to review existing and
                  proposed legislation and regulations relating to Department
                  programs and operations and to comment on the impact
                  which they may have on economical and efficient operations
                  of the Department.

                  Desktop Software Guidance
                  Established
                  Following a highly critical OIG report of the Department’s
                  lack of desktop standardization which prevented the
                  Department from taking advantage of enterprise-level
                  software acquisition vehicles, the Department developed a
                  DOE Desktop Software Guidance Profile. The Guidance
                  Profile focuses on desktop software products for
                  administrative business computing and establishes a target for
                  the Department for the 2001-02 timeframe as well as
                  standards. The Guidance Profile will support
                  Departmentwide planning, acquisition, and business
                  information interchange. In addition, the Department
                  identified future areas for standardization: application
                  development; web tools; document management; utilities;
                  project management; desktop database; and remote access.




40
                       At Your Service



                OIG Discovers Patches Being Made
                Available on Internet
                It came to the attention of the OIG that certain Department
                security patches had been put up for sale on the Internet.
                While the availability of this item would most likely interest
                collectors, the distribution of any item that might facilitate
                access to a restricted facility should be avoided. The Office
effectiveness
                of Security and Emergency Operations was notified of the
                sale and procedures for disposing of surplus uniforms were
                changed.




                                                                           41
                                                                   At Your Service


                                           AUDIT REPORTS ISSUED IN THE SECOND HALF
     Reports Issued
                                                     OF FISCAL YEAR 2000
                          Report                                                                                    Questioned
                          Number                             Title                       Date        Savings          Costs
                          ER-B-00-01       Central Shops at Brookhaven                 05-11-00
                                           National Laboratory
                          ER-B-00-02       Security Overtime at the Oak Ridge          06-13-00 $11,300,000
                                           Operations Office
                          ER-B-00-03       Waste Characterization at Oak               06-19-00        $480,000
                                           Ridge
                          ER-C-00-03       Interim Audit of Princeton                  05-22-00                         $1,257,530
                                           University’s Costs for
                                           Environmental Remediation of A
                                           and B Sites on Forrestal Campus
                                           Through March 31, 1999
                          ER-FC-00-02 United States Department of Energy               05-24-00
                                      Office of Environmental
                                      Management Uranium Enrichment
                                      Decontamination and
                                      Decommissioning Fund Financial
                                      Statements
                          ER-FC-00-03 Office of Isotope Programs Annual                05-24-00
                                      Report and Financial Statements

                          ER-L-00-04       Management of the Spallation                05-18-00
                                           Neutron Source Program

                          ER-L-00-05       High Level Waste System at the              06-17-00
                                           Savannah River Site
                          ER-L-00-06       Facilities Usage at the Fernald             08-23-00
                                           Environmental Management Project
                          ER-V-00-05       Assessment of the Internal Control          09-08-00                         $2,420,000*
                                           Structure and Impact on the
                                           Allowability of Costs Claimed by
                                           and Reimbursed to Oak Ridge
                                           Associated Universities Under
                                           Department of Energy Contract No.
                                           DE-AC05-76OR00033




42                    *Unsupported Costs
                      Additional information on the OIG, including the full text of its public reports and Department
                      management’s comments, can be found on the OIG website – www.ig.doe.gov
                                                         At Your Service


                                AUDIT REPORTS ISSUED IN THE SECOND HALF
Reports Issued
                                          OF FISCAL YEAR 2000


                 Report                                                                            Questioned
                 Number                          Title                      Date       Savings       Costs
                 ER-V-00-06    Assessment of Changes to the Internal       06-30-00
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Brookhaven National
                               Laboratory Under Department of Energy
                               Contract No. DE-AC02-98CH10886
                 ER-V-00-07    Assessment of Changes to the Internal       08-23-00
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Westinghouse Savannah
                               River Company Under Department of
                               Energy Contract No. DE-AC09-
                               96SR18500
                 ER-V-00-08    Assessment of Changes to the Internal       08-31-00
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Ames Laboratory Under
                               Department of Energy Contract No. W-
                               7405-ENG-82
                 ER-V-00-09    Assessment of the Internal Control          09-08-00                   $62,290
                               Structure and its Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Bechtel Jacobs Company
                               LLC Under Department of Energy
                               Contract No . DE-AC05-98OR22700
                 WR-B-00-05    Performance Incentives at the Idaho         04-04-00                $11,300,000
                               National Engineering and Environmental
                               Laboratory
                 WR-B-00-06    Hanford Site Radiation and Hazardous        09-29-00   $6,000,000
                               Waste Training
                 WR-B-00-07    Vehicle Use at Lawrence Livermore           09-20-00   $3,450,000
                               National Laboratory
                 WR-FC-00-01   Agreed-upon Procedures on Operations at     09-13-00                   $50,706
                               the Naval Oil Shale Reserve No. 3 for the
                               Naval Petroleum and Oil Shale Reserves,
                               Colorado, Utah, and Wyoming



                                                                                                           43
                                                         At Your Service

 Reports Issued
                                AUDIT REPORTS ISSUED IN THE SECOND HALF
                                          OF FISCAL YEAR 2000

                  Report                                                                      Questioned
                  Number                         Title                    Date      Savings     Costs

                  WR-FS-00-03    Matters Identified at the Albuquerque   05-16-00
                                 Operations Office During the Audit
                                 of the Department of Energy’s
                                 Consolidated Fiscal Year 1999
                                 Financial Statements
                  WR-L-00-05     The Million Solar Roofs Initiative      09-13-00
                  WR-L-00-06     Contractor Training                     09-26-00
                  WR-V-00-03     Assessment of Changes to the            06-20-00             $1,509,236
                                 Internal Control Structure and Their
                                 Impact on the Allowability of Costs
                                 Claimed by and Reimbursed to
                                 Sandia Corporation Under
                                 Department of Energy Contract No.
                                 DE-AC04-94AL85000

                  WR-V-00-04     Assessment of Changes to the            06-28-00
                                 Internal Control Structure and Their
                                 Impact on the Allowability of Costs
                                 Claimed by and Reimbursed to Los
                                 Alamos National Laboratory Under
                                 Department of Energy Contract No.
                                 W-7405-ENG-36

                  WR-V-00-05     Assessment of Changes to the            07-11-00
                                 Internal Control Structure and Their
                                 Impact on the Allowability of Costs
                                 Claimed by and Reimbursed to the
                                 Regents of California, Lawrence
                                 Livermore National Laboratory
                                 Under Department of Energy
                                 Contract No. W-7405-ENG-48




44
                                                     At Your Service

                           AUDIT REPORTS ISSUED IN THE SECOND HALF
                                     OF FISCAL YEAR 2000
Reports Issued
                 Report                                                                        Questioned
                 Number                      Title                    Date        Savings        Costs
                 WR-V-00-06   Assessment of Changes to the           07-20-00                    $803,431
                              Internal Control Structure and Their
                              Impact on the Allowability of Costs
                              Claimed by and Reimbursed to
                              Lockheed Idaho Technologies
                              Company Under Department of
                              Energy Contracts No. DE-AC07-
                              94ID13223 and No. DE-AC07-
                              94ID13299
                 WR-V-00-07   Assessment of Changes to the           08-10-00
                              Internal Control Structure and Their
                              Impact on the Allowability of Costs
                              Claimed by and Reimbursed to
                              Battelle-Pacific Northwest National
                              Laboratory Under Department of
                              Energy Contract No. DE-AC06-
                              76RL01830
                 IG-0466      Implementation of Integrated           04-03-00   $127,500,000
                              Business Information Systems
                              Within the Department of Energy
                 IG-0467      U. S. Department of Energy’s           04-06-00
                              Global Climate Change Activities
                 IG-0468      Facilities Information Management      04-26-00
                              System
                 IG-0469      Land Conveyance and Transfer at        04-28-00
                              Los Alamos National Laboratory
                 IG-0470      Follow-up Audit of Health Benefit      05-11-00   $165,000,000
                              Costs at the Department’s
                              Management and Operating
                              Contractors
                 IG-0473      Campaigning Activities by Political    05-31-00
                              Appointees
                 IG-0474      Experimental Breeder Reactor II        06-29-00     $1,500,000
                              Termination Activities




                                                                                                      45
                                                     At Your Service

     Reports Issued
                                AUDIT REPORTS ISSUED IN THE SECOND HALF
                                          OF FISCAL YEAR 2000

                      Report                                                                    Questioned
                      Number                    Title                   Date       Savings        Costs
                      IG-0475    Non-Nuclear Weapons Parts at the      06-29-00
                                 Rocky Flats Environmental
                                 Technology Site
                      IG-0476    Best Practices for Environmental      07-07-00
                                 Management Baseline
                                 Development
                      IG-0479    Management of Patent and              08-11-00
                                 Licensing Activities at Department-
                                 Owned Contractor-Operated
                                 Laboratories
                      IG-0481    The Decontamination and               09-12-00
                                 Decommissioning Contract at the
                                 East Tennessee Technology Park
                      IG-0483    Implementation of Presidential        09-22-00
                                 Decision Directive 63, Critical
                                 Infrastructure Protection
                      IG-0484    Management of the Nuclear             09-22-00
                                 Weapons Production Infrastructure
                      IG-0485    Corporate and Stand-Alone             09-28-00   $38,346,875
                                 Information System Development




46
                                                        At Your Service

Reports Issued
                        INSPECTION REPORTS ISSUED IN THE SECOND HALF
                                     OF FISCAL YEAR 2000 *
                   Report                                                                   Questioned
                   Number                       Title                   Date      Savings     Costs
                     IG-0471    Inspection of Allegations Relating to 05-30-00
                                the Albuquerque Operations Office
                                Security Survey Process and the
                                Security Operations’ Self-
                                Assessments at Los Alamos National
                                Laboratory
                     IG-0472    Inspection of Surplus Computer         06-01-00
                                Equipment Management at the
                                Savannah River Site
                     IG-0477    Inspection of Cost Recovery            07-26-00
                                Concerns at the Office of Scientific
                                and Technical Information
                     IG-0478    Inspection on the Review of            07-28-00
                                Scientific Integrity Issues at
                                Lawrence Berkeley National
                                Laboratory
                     IG-0480    Inspection of Gain Sharing             09-01-00
                                Opportunities for the Department of
                                Energy
                     IG-0482    Allegations Concerning the             09-28-00
                                Department of Energy’s Site
                                Safeguards and Security Planning
                                Process




                                                                                                    47
                 *Does not include non-public reports.
                                                           At Your Service
 Statistics
                                                AUDIT REPORT STATISTICS
                                                     April 1 to September 30, 2000

                  The following table shows the total number of operational and financial audit reports,
                  and the total dollar value of the recommendations.


                                                             Total       One-Time          Recurring              Total
                                                            Number        Savings           Savings              Savings

                   Those issued before the
                   reporting period for which no
                   management decision has
                                                               12      $221,258,218      $148,330,516 $369,588,734
                   been made:*

                   Those issued during the
                   reporting period:                            39     $128,162,538      $241,560,000 $369,722,538

                   Those for which a manage-
                   ment decision was made
                   during the reporting period:*                24     $244,766,252      $124,960,000 $369,726,252

                     Agreed to by management:                          $101,793,714      $118,160,000 $219,953,714
                    Not agreed to by manage-
                    ment:                                               $80,800,000        $2,000,000 $ 82,800,000

                   Those for which a manage-
                   ment decision is not required:               14        $0                    $0              $0

                   Those for which no manage-
                   ment decision had been made
                   at the end of the reporting
                   period:*                                     13     $166,827,042      $269,730,516 $436,557,558




                    *The figures for dollar items include sums for which management decisions on the
                    savings were deferred.




              Additional information on the OIG, including the full text of its public reports and Department
48            management’s comments, can be found on the OIG website – www.ig.doe.gov
                                                At Your Service
Statistics
                                       AUDIT REPORT STATISTICS
                                          April 1 to September 30, 2000

             The following table shows the total number of contract audit reports, and the total dollar
             value of questioned costs and unsupported costs.


                                                                Total Questioned Unsupported
                                                               Number   Costs       Costs

             Those issued before the reporting period
             for which no management decision has
             been made:                                            3       $6,394,217         $84,241


             Those issued during the reporting period:             1       $1,257,530         $0

             Those for which a management decision
             was made during the reporting period:                 0       $0                 $0

               Value of disallowed costs:                                  $0                 $0
               Value of costs not disallowed:                              $0                 $0

             Those for which a management decision is
             not required:                                         0       $0                 $0

             Those for which no management decision
             had been made at the end of the reporting
             period:                                               4       $7,651,747         $84,241




                                                                                                   49
                                          At Your Service
Statistics
             T    he following are audit reports issued before the beginning of the reporting
             period for which no management decisions had been made by the end of the
             reporting period, the reasons management decisions had not been made, and the
             estimated dates (where available) for achieving management decisions. These
             audit reports are over 6 months old without a management decision. The
             Department has a system in place which tracks audit reports and management
             decisions. Its purpose is to ensure that recommendations and corrective actions
             indicated by audit agencies and agreed to by management are addressed and
             effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following contract
             reports for the following reasons. They include delaying settlement of final costs
             questioned in audits pending completion of review of work papers and voluminous
             additional records.

             ER-CC-93-05           Report Based on the Application of Agreed-Upon
                                   Procedures With Respect To Temporary Living Allowance
                                   Costs Claimed Under Contract No. DE-AC09-88SR18035,
                                   October 1, 1987, to September 20, 1990, Bechtel National
                                   Inc., San Francisco, California, and Bechtel Savannah River,
                                   Inc., North Augusta, South Carolina, May 3, 1993
                                   (Estimated date of closure: October 31, 2000).

             WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-
                                   RIRF00025, July 26, 1990, to March 31, 1993, Wackenhut
                                   Services, Inc., Golden, Colorado, March 14, 1999
                                   (Estimated date of closure: December 30, 2000).

             ER-C-97-01            Report on Interim Audit of Costs Incurred Under Contract
                                   No. DE-AC24-92OR219721 From October 1, 1994, to
                                   September 30, 1995, Fernald Environmental Restoration
                                   Management Corporation, Fernald, Ohio, December 20,
                                   1996
                                   (Estimated date of closure: September 30, 2001)

             Additional time was necessary to develop management decisions for the following
             reports. Further explanations for the delays follow each audit report.

             CR-B-97-02            Audit of Department of Energy’s Contractor Salary Increase
                                   Fund, April 4, 1997. The finalization of the management



50
                             At Your Service
Statistics
                          decision on this report is awaiting resolution of one out-
                          standing issue. It is estimated that this will occur by
                          March 31, 2001.

             IG-0411      Contractor Incentive Programs at the Rocky Flats Envi-
                          ronmental Technology Site, August 13, 1997. The final-
                          ization of the management decision on this report is
                          pending the resolution of one outstanding legal issue.
                          This should occur by March 31, 2001.

             CR-B-99-02   Management of Unneeded Materials and Chemicals,
                          September 30, 1999. The finalization of the manage-
                          ment decision is pending resolution of accountability
                          issues. It is estimated that this will occur by
                          March 31, 2001.

             IG-0454      Waste Incineration at the Idaho National Engineering
                          and Environmental Laboratory, December 15, 1999.
                          Final drafting of the management decision is underway.
                          It is expected that it will be approved by November 30,
                          2000.

             IG-0457      Follow-up Audit of Program Administration by the
                          Office of Science, January 24, 2000. The management
                          decision is awaiting the resolution of a nonconcurrence.
                          It should be made by December 30, 2000.

             IG-0461      Groundwater Monitoring Activities at Department of
                          Energy Facilities, February 22, 2000. The management
                          decision is under the Secretary’s approval, which should
                          occur by November 3, 2000.

             IG-0462      National Low-Level Waste Management Programs,
                          February 24, 2000. The finalization of the management
                          decision on this report is awaiting resolution of one
                          outstanding issue. It is estimated that this will occur by
                          December 30, 2000.




                                                                                  51
                                                       At Your Service
Statistics
                                            INVESTIGATIVE STATISTICS
                                                 April 1 to September 30, 2000

             Investigations open at the start of this reporting period                               206
             Investigations opened during this reporting period                                       61
             Investigations closed during this reporting period                                       68
             Investigations open at the end of this reporting period                                 199
             Qui Tam investigations opened                                                             8
                 Total open Qui Tam investigations as of 9/29/00                                      28
             Multi-agency task force investigations opened                                            13
                 Total open multi-agency task force investigations as of 9/29/00                      64
             Investigative reports to prosecutors and Department management                           12
             Recommendations to management for positive change and other
                 actions                                                                              16
             Administrative discipline and other management actions                                   14
             Suspensions/debarments                                                                    7
             Investigations referred for prosecution                                                  12
                 Accepted*                                                                             9
                 Indictments                                                                           5
                 Criminal convictions                                                                  2
                 Civil actions                                                                         6
             Fines, settlements, recoveries **                                                 $3,099,169

             *   Some of the investigations accepted during the 6-month period were referred for
                 prosecution during a previous reporting period.
             ** Some of the money collected was the result of task force investigations.




 52
                                                At Your Service
Statistics
                                         INSPECTION STATISTICS
                                            April 1 to September 30, 2000

             Inspections open at the start of this reporting period             54
             Inspections opened during this reporting period                    20
             Inspections closed during this reporting period                    31
             Inspections open at the end of this reporting period               43
             Reports issued (includes non-public reports)                       12
             Inspection recommendations
              Accepted this reporting period                                    34
              Implemented this reporting period                                  6
             Qui Tams processed                                                  8
             Legislative and policy actions processed                           22
             Complaints referred to Department management/others               157
             Referrals to Department management requesting a response for
              OIG evaluations                                                   90




                                            HOTLINE STATISTICS
             Hotline calls, letters, and other complaints                      530
             Hotline calls, letters, and other complaints predicated           248
             Hotline referrals received via the General Accounting Office        8
             Unresolved Hotline predications from previous reporting periods    64
               Total Hotline predications                                      320
             Investigations opened on Hotline complaints                        19
             Hotline actions transferred to the Management Referral System     147
             Hotline actions closed based upon preliminary OIG activity        133
             Hotline predications pending final disposition                     21
               Total Hotline actions                                           320




                                                                               53
                                             At Your Service



                           Feedback Sheet
     The contents of the October 2000 Semiannual Report to Congress comply with the require-
     ments of the Inspector General Act of 1978, as amended. However, there may be addi-
     tional data which could be included or changes in format which would be useful to recipi-
     ents of the Report. If you have suggestions for making the Report more responsive to your
     needs, please complete this feedback sheet and return it to:

                                    Department of Energy
                                    Office of Inspector General (IG-121)
                                    Washington, D.C. 20585

                                    ATTN: Wilma Slaughter




     Your name:

     Your daytime telephone number:

     Your suggestion for improvement: (please attach additional sheets if needed)




     If you would like to discuss your suggestion with a staff member of the Office of In-
     spector General or would like more information, please call Wilma Slaughter at
     (202) 586-1924 or contact her on the Internet at wilmatine.slaughter@hq.doe.gov.




54
                                                                     At Your Service




                                                              U.S. Department of
                                                                     Energy
                                                                    Office of
                                                              Inspector General


                                                                HOTLINE
     Did You know?

26% of investigations                                        Protect Your Investments
     open as of
                                   Tear along dotted line




September 30, 2000,                                         Be a Good Corporate Citizen
 were a result of an
 OIG Hotline call or                                        Report Fraud, Waste, or
       letter.
                                                                    Abuse
Source: Energy Inspector General
    Project Tracking System                                  By a DOE Employee,
                                                                  Contractor
                                                                      or
                                                               Grant Recipient
                                                              Call 1-800 541-1625
                                                               Or 202 586-4073
                                                             Additional information on the OIG
                                                              can be found by visiting the OIG
                                                                website – www.ig.doe.gov
